Lo
I

C@OCKLE

2311 Douglas Street L e g a l B ri e f Ss E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

MARION E. PITCH, the Personal Representative of the Estate of
ANTHONY S. PITCH, and LAURA WEXLER,
Petitioners,

v.
UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 21st day of August, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

JOSEPH J. BELL

Counsel of Record
PAUL W. ARMSTRONG
BELL & SHIVAS, P.C.
150 Mineral Springs Drive
P.O. Box 220
Rockaway, NJ 07866
(973) 442-7900
joebell@bsblawgroup.com
Counsel for Petitioners
Marion E. Pitch and Laura Wexler

Subscribed and sworn to before me this 21st day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

el Q. Blows Ouademr-be. Bh ba

Notary Public

Exp. September 5, 2023

 

 

Affiant 40064
SERVICE LIST

Jeffrey Wall

Acting Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217

supremectbriefs@usdoj.gov
